Audit Report




OIG-14-034
OCC’s Review of Banks’ Use of Third Party Service Providers Is
Not Sufficiently Documented
April 21, 2014




Office of
Inspector General
Department of the Treasury
Contents


Audit Report
 Background .................................................................................................... 2

 Results of Audit .............................................................................................. 4

   OCC Has Updated Guidance to Banks on Managing Risks Related to
   the Use of Third Parties .................................................................................4
   OCC Examiners' Review of the Use of Third Parties by Smaller
   Financial Institutions is Not Sufficiently Documented .........................................6

 Recommendation ............................................................................................ 9


Appendices
 Appendix 1: Objectives, Scope, and Methodology .............................................11

 Appendix 2: Management Comments ...............................................................13

 Appendix 3: Major Contributors to This Report ..................................................15

 Appendix 4: Report Distribution .......................................................................16


Abbreviations and Acronyms
 CFPB                  Consumer Financial Protection Bureau
 EIC                   examiner-in-charge
 FDIC                  Federal Deposit Insurance Corporation
 FFIEC                 Federal Financial Institutions Examinations Council
 FRB                   Board of Governors of the Federal Reserve System
 IT                    information technology
 MDPS                  multi-regional data processing servicer
 NCUA                  National Credit Union Administration
 OCC                   Office of the Comptroller of the Currency




                        OCC’s Review of Banks’ Use of Third Party Service Providers Is Not Sufficiently      Page i
                        Documented (OIG-14-034)
         This page intentionally left blank.




OCC’s Review of Banks’ Use of Third Party Service Providers Is Not Sufficiently   Page ii
Documented (OIG-14-034)
                                                                                       Audit
OIG
The Department of the Treasury
                                                                                       Report
Office of Inspector General

Audit Report




                  April 21, 2014

                  Thomas J. Curry
                  Comptroller of the Currency

                  This report presents the results of our audit of the Office of the
                  Comptroller of the Currency’s (OCC) supervision of the use of
                  third-party service providers (hereafter referred to as third parties)
                  by national banks and federal savings associations. This is an OCC
                  operation that we had not previously reviewed.

                  Our audit objective was to evaluate the sufficiency and
                  effectiveness of OCC’s procedures for supervising the use of third
                  parties by national banks and federal savings associations. We
                  interviewed OCC personnel responsible for supervising banks’ use
                  of third parties and reviewed relevant OCC documentation, such as
                  policies, procedures, and guidance, as well as similar documents
                  issued by other federal regulatory agencies. We conducted our
                  audit fieldwork from July 2012 through July 2013. Appendix 1
                  contains a more detailed description of our objectives, scope, and
                  methodology.

                  In brief, we found that OCC provided guidance to banks on
                  managing risks related to the use of third parties. OCC Bulletin
                  2001-47, “Third-Party Relationships: Risk Management Principles”
                  was in effect during our audit. Although generally comprehensive,
                  the guidance needed to be updated. Subsequent to the end of our
                  fieldwork, OCC issued new risk-management guidance related to
                  third-party relationships for national banks and federal savings
                  associations.

                  In addition, we found that, as part of their examinations, OCC
                  examiners conclude upon the adequacy of bank processes for
                  managing risks related to the use of third parties. However, we
                  found that examination workpapers related to the use of third
                  parties by smaller financial institutions often do not leave a clear


                  OCC’s Review of Banks’ Use of Third Party Service Providers Is Not Sufficiently   Page 1
                  Documented (OIG-14-034)
             enough audit trail to enable a reviewer to determine how the
             conclusions were reached.

             We are recommending that OCC reinforce to examination staff the
             need for workpapers to contain essential information to support
             conclusions about banks’ governance of third parties. Essential
             information should include the procedures performed and the
             results upon which the conclusions are based.

             In a written response, which is included as appendix 2, OCC
             management stated that it will communicate to examiners, via
             memorandum and discussion, the expectations for documentation
             when reviewing a bank’s risk regarding third-party service
             providers. Additionally, OCC will update relevant booklets of the
             Comptroller’s Handbook to incorporate references to OCC guidance
             on third party service providers, and revise the Community Bank
             Supervision booklet to more clearly address procedures for scoping
             reviews and monitoring of banks’ reliance on third parties for
             critical services. We consider these planned corrective actions as
             responsive to our recommendation.


Background
             Financial institutions use third parties to carry out significant parts
             of their regulated and unregulated activities. Such third parties
             could include vendors, agents, dealers, brokers, marketers, and
             bank service companies that have entered into a business
             relationship with an insured depository institution. A third party can
             be a bank or a nonbank, affiliated or not affiliated, domestic or
             foreign. Use of third parties can cross many business activities and
             may include information technology (IT) services, such as
             applications development, programming, and coding; specific
             banking and administrative operations, such as aspects of finance
             and accounting; back-office activities, processing, and
             administration; and other contract functions, such as call centers.
             Third party arrangements can be complex and have the potential to
             transfer risk management and compliance to third parties who may
             not be regulated and who may operate offshore. Industry and
             regulators acknowledge that this increased reliance on third parties



             OCC’s Review of Banks’ Use of Third Party Service Providers Is    Page 2
             Not Sufficiently Documented (OIG-14-034)
                         may affect the ability of the regulated entities to manage their risks
                         and monitor their compliance with regulatory requirements.

                         OCC supervises 1,971 banking institutions with total assets of
                         approximately $10 trillion, 1 but it does not maintain statistical data
                         on third party use by the financial institutions under its supervision.

                         Under the Bank Service Company Act, OCC has the authority to
                         supervise third parties engaged by national banks and federal
                         savings associations for the performance of any applicable
                         functions of the regulated institution’s internal operations. 2 OCC’s
                         supervision of an institution’s use of third parties includes the
                         promulgation of guidance requiring boards of directors and
                         management of national banks and federal savings associations to
                         oversee and manage third-party relationships, 3 the evaluation of the
                         third party governance process at individual regulated financial
                         institutions, and the direct examination of certain larger technology
                         service providers.

                         Technology service providers that service a large number of insured
                         financial institutions supervised by more than one federal financial
                         institution regulator may be subject to interagency examinations
                         performed under the auspices of the Federal Financial Institutions
                         Examination Council’s (FFIEC) Multi-Regional Data Processing
                         Servicers (MDPS) program. 4 Two FFIEC publications provide a

1
    According to OCC’s 2012 Annual Report, OCC supervised 1,351 national banks, 573 federal savings
    associations, and 47 federal branches of foreign banks in the United States. National bank and federal
    branch assets totaled $9.2 trillion, and federal savings association assets totaled $803.1 billion.
2
    12 U.S.C. § 1867 (c).
3
    OCC Bulletin 2001-47, “Third-Party Relationships: Risk Management Principles,” Nov. 2001, was in
    effect during our audit. Subsequent to the end of our fieldwork, OCC issued Bulletin 2013-29, “Third-
    Party Relationships: Risk Management Guidance,” on October 30, 2013.
4
    The council is a formal interagency body empowered under 12 U.S.C. Chapter 34, Federal Financial
    Institutions Examination Council, to prescribe uniform principles, standards, and report forms for the
    federal examination of financial institutions by the Board of Governors of the Federal Reserve System
    (FRB), the Consumer Financial Protection Bureau (CFPB), the Federal Deposit Insurance Corporation
    (FDIC), the National Credit Union Administration (NCUA), and OCC. The council also makes
    recommendations to promote uniformity in the supervision of financial institutions. The MDPS
    program is a cooperative arrangement among the agencies for the achievement of shared and
    consistent supervisory goals and objectives. As a general rule, a technology service provider is
    considered for the MDPS program when the provider processes mission-critical applications for a large
    number of financial institutions that are regulated by more than one agency, thereby posing a high
    degree of systems risk, or from a number of data centers located in different geographic regions. As
    of December 2012, there were 15 technology service providers subject to the MDPS program.

                        OCC’s Review of Banks’ Use of Third Party Service Providers Is               Page 3
                        Not Sufficiently Documented (OIG-14-034)
                         framework for the direct oversight of these large technology
                         service providers:

                         •   IT Examination Handbook: Supervision of Technology Service
                             Providers

                         •   Federal Regulatory Agencies’ Administrative Guidelines:
                             Implementation of Interagency Programs for the Supervision of
                             Technology Service Providers

                         The IT Examination Handbook also guides OCC examiners in the
                         conduct of direct examinations of technology service providers. 5
                         Such reviews are a part of OCC’s supervision of third parties used
                         by regulated institutions.

                         Our audit focused on OCC’s supervision of individual financial
                         institution’s use of third parties. Accordingly, the direct
                         examinations of technology service providers under the MDPS or
                         by OCC were not included within the scope of this audit.


Results of Audit
                         OCC Has Updated Guidance to Banks on Managing Risks
                         Related to the Use of Third Parties
                         During our audit period, OCC Bulletin 2001-47, “Third-Party
                         Relationships: Risk Management Principles,” served as the
                         guidance to banks on managing the risks related to third-party
                         relationships. In this guidance, OCC established an expectation that
                         boards of directors and management of banks should properly
                         oversee and manage third-party relationships. OCC Bulletin
                         2001-47 was generally comprehensive but outdated. For example,
                         it did not reflect the recent broader focus on operational risk rather
                         than transaction risk.




5
    While the MDPS program provides for interagency examinations of technology service providers,
    federal or state regulatory agency are not precluded from conducting an independent examination of
    any technology service provider that is servicing an insured financial institution for which the agency
    is responsible.

                         OCC’s Review of Banks’ Use of Third Party Service Providers Is                Page 4
                         Not Sufficiently Documented (OIG-14-034)
In October 2013, OCC issued updated risk-management guidance
related to third-party relationships for national banks and federal
savings associations. This issuance, OCC Bulletin 2013-29, “Third-
Party Relationships: Risk Management Guidance,” rescinded
Bulletin 2001-47. OCC personnel stated that the new guidance
provides a more comprehensive instruction for banks to ensure that
third-party relationships, especially those that involve critical bank
activities, are conducted in a safe and sound manner. We agree
with this assessment. While the new guidance reiterates that a
bank should adopt risk-management processes commensurate with
the level of risk and complexity of its third-party relationships, it
goes into greater detail than OCC Bulletin 2001-47 in defining
attributes of an effective risk-management process for third-party
relationships. These attributes include:

•   plans that outline the bank’s strategy, identify the inherent risks
    of the activity, and detail how the bank selects, assesses, and
    oversees the third party;

•   proper due diligence in selecting a third party;

•   written contracts that outline the rights and responsibilities of
    all parties;

•   ongoing monitoring of the third party’s activities and
    performance;

•   contingency plans for terminating the relationship in an effective
    manner;

•   clear roles and responsibilities for overseeing and managing the
    relationship and risk-management process;

•   documentation and reporting that facilitates oversight,
    accountability, monitoring, and risk management; and

•   independent reviews that allow bank management to determine
    that the bank’s process aligns with its strategy and effectively
    manages risks.




OCC’s Review of Banks’ Use of Third Party Service Providers Is     Page 5
Not Sufficiently Documented (OIG-14-034)
OCC Examiners’ Review of the Use of Third Parties by
Smaller Financial Institutions is Not Sufficiently
Documented
We reviewed examination workpapers supporting OCC’s
supervision of 18 banks’ use of third parties for the two most
recent examination cycles. These institutions included 2 large
banks, 2 midsize banks, 10 community banks, and 4 federal
savings associations. For all banks, OCC examiners reached
conclusions related to the banks’ management of third parties;
however, OCC had comprehensive workpapers documenting the
nature and scope of the work performed to reach those
conclusions for only four banks (two large banks, one midsize
bank, and one federal savings association). Workpapers detailing
examination procedures at the remaining, mostly smaller,
institutions were limited. The quantity of workpapers supporting
the conclusions at these banks varied but often did not identify the
extent to which the institution used third parties, identify the
degree of risk presented to the institution’s operations by the third
parties, or document detailed procedures that validated the
institution’s compliance with OCC Bulletin 2001-47.

OCC officials told us that examiners did evaluate the use of third
parties at these institutions and that the work was generally
targeted on assessing the institution’s compliance with OCC
Bulletin 2001-47. The nature and scope of this work depended on
the examiner’s knowledge of the institution, prior examination
results, an assessment of the risk to the institution, and the
resources available to the examination team. We noted that the
“Community Bank Supervision” booklet of the Comptroller’s
Handbook allows for the execution of limited procedures (that is,
minimum objectives) in areas where the examiners deem low-risk.
For these areas, examiners determine whether significant changes
have occurred in the bank’s risk profile, including business
activities, management performance, or condition of the area, as
compared to the profile noted in the previous supervisory cycle. If,
after completion of the minimum objectives, examiners identify no
significant changes in the institution’s risk profile, they can choose
not to perform further work in the low risk area.



OCC’s Review of Banks’ Use of Third Party Service Providers Is    Page 6
Not Sufficiently Documented (OIG-14-034)
As noted previously, the workpapers that we reviewed often did
not identify the extent to which the institution used third parties or
the degree of risk presented to the institution’s operations by these
third parties. The workpapers often did not leave a clear audit trail
or contain enough documentation to enable a reviewer to
understand how OCC examiners reached their conclusions on third
parties.

OCC officials also told us that variations in or absence of
documentation detailing examiners’ evaluation of third parties can
be explained by the following factors:

•   Given limited examiner resources, especially for smaller
    institutions, OCC examiners focus on documenting their work in
    areas considered high-risk and on supporting negative assertions
    that could be subject to challenge by the bank’s management.
    As a result, based on their knowledge of the bank, examiners
    may not spend resources documenting the work supporting
    their conclusion when they know the third party or other area
    they are looking at is in “good shape”. For example, examiners
    may have discussions on the topic of third parties and vendor
    management, but if it is determined that management’s process
    is satisfactory, there may not be any documentation of these
    discussions in the workpapers.

•   In such cases where a process is satisfactory, sign off by the
    examiner-in-charge (EIC) on the conclusion statement in the
    workpapers is considered sufficient to document that adequate
    work was performed to reach that conclusion.

•   When evaluating the use of third parties in smaller institutions,
    the examiner’s review will tend to be business-line oriented.
    Although there may not be documentation of the testing of
    specific third parties for compliance with the institution’s
    vendor-management process, third parties may be evaluated
    during the review of the business line to which they relate. Our
    review of OCC workpapers found instances in which concerns
    with a third party were noted in the conclusion statements for
    specific business lines of the banks. While this indicates that
    the examiners reviewed third parties during their examination,
    the nature and extent of procedures applied to third parties
    were not usually described.
OCC’s Review of Banks’ Use of Third Party Service Providers Is    Page 7
Not Sufficiently Documented (OIG-14-034)
                       We acknowledge OCC’s desire to have examiners focus
                       examination procedures on areas of risk and its willingness to rely
                       on the experience, institutional knowledge, and judgment of the
                       examination team—especially the EIC. OCC policy PPM 5400-8
                       states that, in most cases, supervision workpapers need not
                       include all of the data reviewed during a supervisory activity.
                       However, the policy also states that workpapers must contain all
                       essential information required to support conclusions about
                       supervisory activities. 6 In addition, workpapers should clearly
                       document which examination procedures were performed and
                       whether they were performed fully or partially. To comply with this
                       guidance, we believe that workpapers should contain, at a
                       minimum, a description of the procedures performed and the
                       results of the review on which the conclusions are based.

                       Several publications describe aspects of third party examination:

                       •   OCC Bulletin 2001-47 broadly addresses the OCC supervisory
                           approach.

                       •   Both the FFIEC IT Examination Handbook and Federal
                           Regulatory Agencies’ Administrative Guidelines, while directed
                           toward IT examiners for use in IT focused exams, describe in
                           detail the processes for examining service-provider governance.

                       •   The “Community Bank Supervision” and “Internal and External
                           Audits” booklets contain guidance and examination procedures
                           addressing governance of outsourced internal audit
                           arrangements.

                       •   The “Retail Lending Examination Procedures” booklet of the
                           Comptroller’s Handbook provides detailed procedures to address
                           the extent of third-party involvement in retail lending activities
                           and evaluating the effectiveness of management’s third-party
                           oversight and risk-management processes.

                       However, the Comptroller’s Handbook lacked separate guidance to
                       cover examination procedures and documentation requirements for
                       supervising an institution’s governance of both IT and non-IT third

6
    OCC, Policy and Procedures Manual (PPM) 5400-8 (REV), “Bank Supervision: Supervision Work
    Papers,” Oct. 23, 2002.

                       OCC’s Review of Banks’ Use of Third Party Service Providers Is           Page 8
                       Not Sufficiently Documented (OIG-14-034)
           parties during regular safety and soundness examinations. Specific
           guidance or training targeted at examination teams at similar
           institutions, with similar resource constraints, may prove useful to
           OCC in promoting sufficient documentation.


Recommendation
           We recommend that the Comptroller of the Currency reinforce to
           examination staff the need for workpapers to contain essential
           information to support conclusions about banks’ governance of
           third parties, as required by PPM 5400-8. Essential information
           should include the procedures performed and the results upon
           which the conclusions are based.

           Management Response

           OCC will issue a memorandum highlighting expectations for
           complying with PPM 5400-8 when examiners review a bank’s risk
           regarding third-party service providers. OCC management will
           direct front line managers responsible for the supervision of
           community and midsize banks to discuss this issue with the
           examiners they supervise by September 30, 2014.

           OCC will also incorporate references to OCC Bulletin 2013-29, its
           updated guidance on managing risks associated with third-party
           relationships, into relevant booklets of the Comptroller’s Handbook
           as they cycle through the periodic review and revision process. In
           addition, the “Community Bank Supervision” booklet, which sets
           forth procedures for examining smaller banks, will be revised to
           include more explicit language and procedures for scoping reviews
           and ongoing monitoring of banks’ reliance on third parties for
           critical services.

           OIG Comment

           OCC’s planned corrective actions are responsive to our
           recommendation.

                                          * * * * *


           OCC’s Review of Banks’ Use of Third Party Service Providers Is   Page 9
           Not Sufficiently Documented (OIG-14-034)
We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-0384 or James Lisle, Audit Manager, at
(202) 927-6345. Major contributors to this report are listed in
Appendix 3.




Jeffrey Dye /s/
Director, Banking Audits




OCC’s Review of Banks’ Use of Third Party Service Providers Is   Page 10
Not Sufficiently Documented (OIG-14-034)
                         Appendix 1
                         Objectives, Scope & Methodology



                         Appendix 1: Objectives, Scope, and Methodology
                         Our objective was to evaluate the sufficiency of the Office of the
                         Comptroller of the Currency’s (OCC) existing procedures for
                         supervising the use of third-party service providers (third parties)
                         by national banks and federal savings associations, as well as the
                         effectiveness of the application of these procedures. To accomplish
                         these objectives, we:

                         •   interviewed OCC personnel responsible for supervising banks’
                             use of third parties;

                         •   reviewed OCC examination policies, procedures, and guidance
                             related to supervision of banks’ use of third parties, as well as
                             those issued by other federal regulatory agencies, such as the
                             Board of Governors of the Federal Reserve System (FRB) and
                             the Federal Deposit Insurance Corporation (FDIC);

                         •   reviewed bulletins, bank guidance, and white papers, issued by
                             the OCC and other federal regulatory agencies discussing risks
                             involved in banks’ use of third parties. These documents
                             reviewed included: OCC Bulletin 2001-47, Third-Party
                             Relationships: Risk Management Principles; OCC Advisory Letter
                             2000-9 Third Party Risk; OCC 2002-16 Bank Use of Foreign-
                             Based Third Party Service Providers; OCC Bulletin 2013-29,
                             Third-Party Relationships: Risk Management Guidance; FDIC
                             Financial Institution Letter 44-2008 Guidance for Managing
                             Third-Party Risk; FRB NY Outsourcing Financial Services
                             Activities: Industry Practices to Mitigate Risks October 1999;
                             FRB Philadelphia Vendor Risk Management 1st Qtr 2011; and
                             FRB DC SR-00-04 Outsourcing of Information and Transaction
                             Processing; and

                         •   reviewed workpapers covering two examination cycles for 18
                             banks selected in proportion to the number of banks in each of
                             OCC’s supervision categories. 7 Typical documents reviewed

7
    OCC supervises both national banks and federal savings associations. For supervision purposes,
    national banks are categorized by size: large banks include the largest national banking companies
    which generally are involved in the most complex activities and operate over wide geographic areas;
    midsize banks (generally assets of $10 billion to $50 billion); and community banks (generally assets
    of less than $10 billion). According to data extracted from the institution directory at FDIC’s website
    as of September 2012, OCC supervised 19 large banks, 17 midsize banks, 1,235 community banks,
    and 569 federal savings associations. We selected 2 large banks, 2 midsize banks, 10 community
    banks, and 4 savings associations for testing.

                         OCC’s Review of Banks’ Use of Third Party Service Providers Is               Page 11
                         Not Sufficiently Documented (OIG-14-034)
Appendix 1
Objectives, Scope & Methodology




    included reports of examinations, supervisory letters and/or
    conclusion memos, scope memos, examination planning request
    letters, core assessments, risk assessments, supervisory
    strategies, work activities, and examination procedures.

We performed our audit fieldwork from July 2012 through July
2013. We did not include reviews of technology service providers
under the Federal Financial Institutions Examination Council (FFIEC)
Multi-Regional Data Processing Servicer (MDPS) program or by
OCC.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




OCC’s Review of Banks’ Use of Third Party Service Providers Is   Page 12
Not Sufficiently Documented (OIG-14-034)
Appendix 2
Management Comments




OCC’s Review of Banks’ Use of Third Party Service Providers Is   Page 13
Not Sufficiently Documented (OIG-14-034)
Appendix 2
Management Comments




OCC’s Review of Banks’ Use of Third Party Service Providers Is   Page 14
Not Sufficiently Documented (OIG-14-034)
                 Appendix 3
                 Major Contributors to This Report



: Management Comments
                Appendix 3: Report
                 James Lisle, Audit Manager
                 Adelia Gonzales, Auditor-in-Charge
                 Marco Uribe, Auditor
                 Cecilia Howland, Referencer




                OCC’s Review of Banks’ Use of Third Party Service Providers Is   Page 15
                Not Sufficiently Documented (OIG-14-034)
Appendix 4
Report Distribution



Appendix 4: Report Distribution

Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
   Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner




OCC’s Review of Banks’ Use of Third Party Service Providers Is   Page 16
Not Sufficiently Documented (OIG-14-034)
